<html>
<title></title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


. 
                 INCREASING ADOPTIONS FROM FOSTER CARE

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 27, 2013

                               __________

                          Serial No. 113-HR01

                               __________

         Printed for the use of the Committee on Ways and Means
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         







                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 89-477                  WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   

         
         


                      COMMITTEE ON WAYS AND MEANS

                     DAVE CAMP, Michigan, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
KEVIN BRADY, Texas                   CHARLES B. RANGEL, New York
PAUL RYAN, Wisconsin                 JIM MCDERMOTT, Washington
DEVIN NUNES, California              JOHN LEWIS, Georgia
PATRICK J. TIBERI, Ohio              RICHARD E. NEAL, Massachusetts
DAVID G. REICHERT, Washington        XAVIER BECERRA, California
CHARLES W. BOUSTANY, JR., Louisiana  LLOYD DOGGETT, Texas
PETER J. ROSKAM, Illinois            MIKE THOMPSON, California
JIM GERLACH, Pennsylvania            JOHN B. LARSON, Connecticut
TOM PRICE, Georgia                   EARL BLUMENAUER, Oregon
VERN BUCHANAN, Florida               RON KIND, Wisconsin
ADRIAN SMITH, Nebraska               BILL PASCRELL, JR., New Jersey
AARON SCHOCK, Illinois               JOSEPH CROWLEY, New York
LYNN JENKINS, Kansas                 ALLYSON SCHWARTZ, Pennsylvania
ERIK PAULSEN, Minnesota              DANNY DAVIS, Illinois
KENNY MARCHANT, Texas                LINDA SANCHEZ, California
DIANE BLACK, Tennessee
TOM REED, New York
TODD YOUNG, Indiana
MIKE KELLY, Pennsylvania
TIM GRIFFIN, Arkansas
JIM RENACCI, Ohio

        Jennifer M. Safavian, Staff Director and General Counsel

                  Janice Mays, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                DAVID G. REICHERT, Washington, Chairman

TODD YOUNG, Indiana                  LLOYD DOGGETT, Texas
MIKE KELLY, Pennsylvania             JOHN LEWIS, Georgia
TIM GRIFFIN, Arkansas                JOSEPH CROWLEY, New York
JIM RENACCI, Ohio                    DANNY DAVIS, Illinois
TOM REED, New York
CHARLES W. BOUSTANY, JR., Louisiana


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of February 27, 2013 announcing the hearing.............     2

                               WITNESSES

Rita L. Soronen, President and Chief Executive Officer, Dave 
  Thomas Foundation for Adoption.................................     7
Kelly Rosati, J.D., Vice President of Community Outreach, Focus 
  on the Family..................................................    18
Pat O'Brien, MS, LMSW, Founder and Executive Director, You Gotta 
  Believe! The Older Child Adoption & Permanency Movement, 
  Incorporated...................................................    29
Nicole Dobbins, Executive Director, Voice for Adoption...........    36

                       SUBMISSIONS FOR THE RECORD

Lilliput Children's Services.....................................    59
Statewide Adoption and Permanency Network........................    63
Family & Youth Initiative........................................    65
Center for Adoption Support and Education (C.A.S.E.).............    68
Human Rights Campaign............................................    71
Family Equality Council..........................................    76
Listening to Parents.............................................    80
Northwest Adoption Exchange......................................    86
Adoptive Parent and Advocate.....................................    89
Marie Dolfi, LCSW................................................    91
Center for Fiscal Equity.........................................    96
Children's Home + Aid............................................    98
NYS Citizens' Coalition for Children (NYSCCC)....................   101
Hillside Family of Agencies......................................   104


                 INCREASING ADOPTIONS FROM FOSTER CARE

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2013

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 4:13 p.m., in 
Room 1100, Longworth House Office Building, Hon. Dave Reichert 
[Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-3625
FOR IMMEDIATE RELEASE
Wednesday, February 20, 2013
No. HR-01

                 Chairman Reichert Announces Hearing on

                 Increasing Adoptions from Foster Care

    Congressman Dave Reichert (R-WA), Chairman of the Subcommittee on 
Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on increasing adoptions from 
foster care, including through the Adoption Incentives program. The 
hearing will take place immediately following the Subcommittee 
organizational meeting that begins at 2:00 p.m. on Wednesday, February 
27, 2013, in Room 1100 of the Longworth House Office Building.
      
    In view of the limited time available to hear from witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include experts from organizations that have had success 
in increasing adoptions from foster care. However, any individual or 
organization not scheduled for an oral appearance may submit a written 
statement for consideration by the Committee and for inclusion in the 
printed record of the hearing.
      

BACKGROUND:

      
    Congress began providing Federal financial support for adoption as 
part of Public Law 96-272, the Adoption Assistance and Child Welfare 
Act of 1980, with a goal of reducing the number of children in foster 
care. In 1997, Congress enacted Public Law 105-89, The Adoption and 
Safe Families Act, to further increase the number of children leaving 
foster care for adoptive homes. This law created the Adoption 
Incentives program, which provides incentive payments to States that 
increase the number of adoptions over a base year level. Initially, 
States were eligible to receive incentive payments either for increases 
in the number of foster children adopted or for increases in the number 
of foster children with special needs placed in adoptive homes.
      
    The program was extended by Public Law 108-145, the Adoption 
Promotion Act of 2003, which reset the State baselines and also added a 
new incentive payment category for adoptions of children age 9 and 
older. This new incentive category was created in response to research 
showing that once a child reached 8 or 9 years of age, he or she was 
more likely to remain in foster care than to be adopted.
      
    Public Law 110-35, the Fostering Connections to Success and 
Increasing Adoptions Act of 2008, again extended the program and reset 
the State baselines. This 2008 law doubled the incentive payments for 
adoptions of special needs children under age 9 and for older child 
adoptions. The 2008 law also authorized incentive payments for States 
that increased the rate of children adopted from foster care. The 
Adoption Incentives program is currently authorized through September 
30, 2013, as is the Family Connection grants program which provides 
grants designed to better connect children in foster care to their 
relatives.
      
    A number of organizations have developed proven methods for 
increasing the number of children who are adopted from foster care, 
contributing to recent success in advancing this goal. For example, 
some organizations focus on reexamining the adult relationships a 
foster youth has had during their time in foster care to determine if 
any of these adults may be possible adoptive parents. Others are 
building more in-depth relationships with a smaller caseload of foster 
youth to better understand their needs and desires to find the right 
home for the child.

    In announcing the hearing, Chairman Reichert stated, ``While tens 
of thousands of children are adopted from foster care each year, twice 
as many foster children are still waiting for a permanent home. Past 
Federal efforts have increased support for adoptions and have helped 
States reduce the number of children in foster care each year. As we 
review the Adoption Incentives program in preparation for its 
reauthorization, we need to make sure these measures are still working 
well so we can ensure all children have a permanent home as quickly as 
possible. I look forward to hearing from leaders and experts alike 
about ways in which we can safely increase the number of children 
adopted from foster care, so every child has a permanent home and 
parents to call their own.''
      

FOCUS OF THE HEARING:

      
    The hearing will review successful efforts to increase adoptions of 
children from foster care. Leaders of several private organizations 
achieving significant success are expected to testify about their 
programs, as well as their views on reauthorizing the Adoption 
Incentives program.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Click here to provide a submission 
for the record.'' Once you have followed the online instructions, 
submit all requested information. ATTACH your submission as a Word 
document, in compliance with the formatting requirements listed below, 
by the close of business on Wednesday, March 13, 2013. Finally, please 
note that due to the change in House mail policy, the U.S. Capitol 
Police will refuse sealed-package deliveries to all House Office 
Buildings. For questions, or if you encounter technical problems, 
please call (202) 225-1721 or (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word format and MUST NOT exceed a total of 10 pages, including 
attachments. Witnesses and submitters are advised that the Committee 
relies on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TDD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available 
online at http://www.waysandmeans.house.gov/.

                                 

    Chairman REICHERT. I call this Subcommittee meeting to 
order. We welcome you to today's hearing. I can't think of a 
more important or more bipartisan topic than promoting 
adoption. This is an area where both parties have worked 
together to improve outcomes for children, which is what I 
would like to do whenever possible as the Chairman of this 
Subcommittee. I know Mr. Doggett agrees with that goal, and I 
look forward to working with all the Members to work 
productively toward that end. Of course, we won't always agree, 
but whether it involves adoption, data standards, or preventing 
wasteful spending, there is a lot we can do, and should do, 
together.
    As Mr. Doggett mentioned, I have a background with 33 years 
in law enforcement, but also some personal experience in the 
adoption/foster care arena. Two of my grandchildren are 
adopted. I was a foster grandparent for a while for a number of 
children and also now, of course, an adoptive grandfather, and 
we are very proud of the fact that my daughter and her husband, 
my son-in-law, have adopted two little children: Emma, who was 
a crack cocaine, heroin-addicted baby when she was born; and 
Breyer, who was a meth-addicted baby when he was born. And you 
can imagine some of the challenges they now face as they grow 
older at 9 and 10 years old. But they now have a strong 
foundation, a loving family, and a good, strong base to start 
their lives from, which gives them so many more opportunities 
than they would have had.
    On the other hand, as the sheriff and as a detective, a 
homicide detective, working in King County--and especially my 
memory goes back to the days working the Green River murder 
cases, if you are familiar with those, a series of murders of 
street people, women and young girls, 51 cases were closed. The 
suspect pled guilty to 49 murders. I worked with a lot of those 
young kids on the street. Those were kids who were in and out 
of foster homes, who weren't adopted, who were in their teens, 
early teens and late teens, some even younger. I would get 
calls at night at home: ``I am at a phone booth, I ran away 
from my foster home.'' You take them to the YWCA and the YMCA; 
they run away from there.
    You folks on the panel know this, have seen this 
yourselves, and have experience there. I know members on this 
panel have heart for this issue, and I wanted to share those 
stories with you so that you understand how close this is to me 
personally in so many different ways. And I could tell so many 
other stories, but we will move on.
    As I said, not every child has been so lucky to have a 
home. For example, in the 10 years from 1987 through 1997, the 
number of children in foster care rose dramatically, climbing 
from 300,000 to 537,000. That surge in foster care caseloads is 
one of the reasons why Congress, led by our current Chairman 
Dave Camp, passed the Adoption and Safe Families Act of 1997. 
That law was designed to ensure more foster children were 
quickly adopted when they couldn't return to live safely with 
their parents.
    The Adoption Incentives program, created as part of that 
law, was one key measure to encourage more adoption of children 
from foster care. In short, it rewards States if they increase 
the number of children leaving foster care for adoptive homes. 
We all know it worked. Since the passage of the Adoption and 
Safe Families Act, foster care caseloads have fallen 
dramatically. After peaking at 567,000 in 1999, foster care 
caseloads have fallen by almost 30 percent. At the same time, 
adoptions from foster care increased in the late 1990s and 
remain much higher than before the law's passage.
    Today we will review how the Adoption Incentives program 
supported these improvements. We will hear directly from 
adoption experts, including from organizations that have proven 
they can increase the number of children adopted from foster 
care, and we will start to consider whether we need to make 
changes to encourage even more adoptions.
    In my view, the Federal Government should continue to 
support efforts to increase adoptions, as there are still over 
100,000 children in foster care waiting to be adopted. These 
kids deserve a place to call home. They need someone who will 
commit to caring for them, and they deserve our best efforts to 
ensure that they are adopted.
    Again, I look forward to the testimony of all of our 
witnesses today and also thank you so much for your patience. I 
am really interested in how we can work together to ensure more 
children grow up in a safe, loving, and permanent family.
    Without objection, each Member will have the opportunity to 
submit a written statement and have it included in the record 
at this point.
    I would like to recognize Mr. Doggett for his opening 
statement.
    Mr. DOGGETT. Thank you, Mr. Chairman.
    I believe that our Federal Adoption Incentives program, 
which provides financial awards to the States that increase the 
number of children adopted out of foster care above a certain 
baseline, is an important part of the effort, the joint 
bipartisan effort, to try to encourage permanent loving homes 
for children who are placed in foster care. These awards are 
due--and this program is due to expire at the end of September, 
not that far from now, and I am hopeful that we will be able to 
work together to reauthorize the program.
    Under the Adoption Incentives program, the States become 
eligible for awards if they increase the number of total 
adoptions, those for children over age 9 that are adopted, and 
the adoption of children with special needs. The goal of the 
program is to incentivize and encourage the States to increase 
the adoptions out of foster care and to quickly move children 
who are unable to return to their parents into permanent homes. 
States must reinvest these payments back into services, such as 
postadoption services for children and families and other 
services generally provided under the child welfare system.
    Forty-three million dollars is available for the program in 
this fiscal year. Since the program was created, as the 
Chairman described, roughly $375 million has been awarded, and 
every State in the country has participated in the funding. In 
fiscal year 2011, Texas, my home State, received about $7 
million in incentives, the largest amount of any State in the 
country. San Antonio has been viewed as a particular model of 
success.
    Bexar County has been creative in safely moving children 
into permanent homes. Each month there at the county 
courthouse, the county hosts an adoption day event that allows 
dozens of families on the same day to complete their adoptions 
in a single day, and that happens every month. These 
proceedings have allowed countless children to have shorter 
stays in foster care and move more quickly into stable homes. I 
believe that judges in Bexar County understand they are 
responsible for getting children who experience abuse and 
neglect into a safer foster environment and, in addition, are 
responsible for placing that child with a permanent family if 
it does not become safe for the child to return home.
    These improvements to the local adoption system, encouraged 
and utilized by child advocates like District Judge Peter 
Sakai, who has been a leader in the area over the last decade, 
and CASA San Antonio, have allowed faster and more efficient 
placement of foster youth into permanent families.
    We will hear from all of our witnesses finally this 
afternoon, but specifically I share the concern that I believe 
Nicole Dobbins will be expressing about the lack of clarity 
regarding how the States use these award payments. I know that 
some States under budget pressures have tended to use the 
Federal money for perhaps what they had been doing previously, 
and I think it is important 
that our Federal resources add to, not supplant money that was 
already being invested on adoption activities. The inclusion of 
a maintenance-of-effort requirement as part of reauthorization 
could help us ensure that the dollars that are so precious here 
that we are expending are actually being used to improve and 
strengthen child welfare.
    I welcome the opportunity to discuss how we can continue to 
increase adoptions for children in foster care, but I do think 
one step that is important is to avoid any cuts in these 
modest, federally-funded adoption initiatives that will occur 
within just a few days under the sequester. Cutting funding for 
this program could 
mean less funding for postadoption services for families that 
have adopted a foster child, or less funding to recruit 
adoptive homes through online adoption exchanges and 
promotional materials, or less support for training adoption 
workers.
    Another issue that requires our attention this year is the 
more recent Family Connection grants initiative. It is also 
scheduled to expire at the end of September. It has provided 
$15 million each year in grants for State agencies and 
community organizations. It has been a more narrow program, but 
it is designed to connect or reconnect children with their 
biological relatives when it is safe and appropriate to do so. 
This small program, fairly new, created only in 2008, is 
currently being evaluated, but it looks like a program, from 
the preliminary review that I have seen, that could be 
effective in improving the lives of at-risk children.
    I look forward to hearing from today's witnesses and 
working with our colleagues to continue to improve the well-
being of all children in foster care.
    Thank you, Mr. Chairman.
    Chairman REICHERT. Thank you, Mr. Doggett.
    I want to remind our witnesses to limit their oral 
testimony to 5 minutes. However, without objection, all of the 
written testimony will be made part of the permanent record.
    On our panel this afternoon we will be hearing from Rita 
Soronen, the President and Chief Executive Officer of the Dave 
Thomas Foundation for Adoption; Kelly Rosati, Vice President of 
Community Outreach, Focus on the Family; Pat O'Brien, Founder 
and Executive Director, You Gotta Believe! The Older Child 
Adoption & Permanency Movement, Incorporated; and Nicole 
Dobbins, Executive Director, Voice for Adoption.
    Ms. Soronen, you are recognized.

  STATEMENT OF RITA L. SORONEN, PRESIDENT AND CHIEF EXECUTIVE 
          OFFICER, DAVE THOMAS FOUNDATION FOR ADOPTION

    Ms. SORONEN. Thank you, Chairman and Members of the 
Committee. I am Rita Soronen, President and CEO of the Dave 
Thomas Foundation for Adoption. I am honored to be with you 
today.
    I would like to start with a short video before I make my 
comments, and I think that is cued to run.
    [Video shown.]
    Sometimes a video can say it all, but I will try to sum it 
up in a few words as well.
    You all know, and thank you for your comments, that 
children come into the child welfare system through no fault of 
their own. They are victims of traumatic abuse and neglect, and 
when they are permanently freed for adoption, our promise to 
them is that we will find them a family. Last year in this 
country, we negligently failed to live up to our promise of a 
family for more than 26,000 children who aged out of care.
    This child-focused recruitment model, or Wendy's Wonderful 
Kids, that was developed, tested, and, until 2012, privately 
funded by the foundation, proves that there is a family for 
every child. We started the program with 7 pilot sites in 2004 
and now provide individual grant commitments to public and 
private agencies that support 169 adoption professionals in 49 
States, the District of Columbia, and 4 provinces in Canada. We 
have served 8,800 children, 3,400 of whom have had a finalized 
adoption, and another 500 are in their preadoptive placement, 
and these numbers are even more compelling when we understand 
the children successfully served.
    The average age of a child served through this program is 
12. At the point of referral into Wendy's Wonderful Kids, 30 
percent of these children had already experienced six or more 
placements, and 50 percent had been in care 4 years or more. 
Half of the children have at least one identified clinical 
disability, and one in five of these children have already had 
a failed or a disrupted adoption. Critically, prior to Wendy's 
Wonderful Kids, more than half of these children had 
experienced no adoption recruitment activities on their behalf, 
none.
    Child-focused recruitment demands that rather than ignoring 
these children because of a perception of unadoptability, or 
casting a broad net of general recruitment, or funding public 
displays of children, experienced adoption professionals work a 
model that includes smaller caseloads of typically harder-to-
place children, intensive contact with the child and others, 
extensive case file review, diligent search for families and 
expert adoption preparation, and we know this works at a cost-
effective level.
    For example, before the State of Ohio took our program to 
scale, their fiscal experts estimated our grant commitments of 
$3 million for seven Ohio recruiters had already saved nearly 
$32 million for the State of Ohio. With a financial partnership 
that added 32 more recruiters focusing on youth, they 
anticipated savings of more than $105,000,000.
    Mr. Chairman and Members of the Committee, no child has to 
age out of care, hoping to make it on their own in this complex 
world. We can and we must keep our promise of finding families 
for all of our children. I will welcome your comments at the 
end of the testimonies.
    [The prepared statement of Ms. Soronen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
    Chairman REICHERT. Thank you for your testimony.
    Ms. Rosati, you are recognized for 5 minutes.

 STATEMENT OF KELLY ROSATI, J.D., VICE PRESIDENT OF COMMUNITY 
                 OUTREACH, FOCUS ON THE FAMILY

    Ms. ROSATI. Thank you, Mr. Chairman and Members of the 
Committee. It is an honor to be here. I am very grateful that 
this is the subject of your hearing today, and it is a 
privilege to be able to be a part of it.
    My name is Kelly Rosati, as you said, and I am the Vice 
President of Community Outreach at Focus on the Family, and as 
a part of our community outreach, Wait No More, our event to 
focus on foster care adoption recruitment, is a cornerstone of 
our work.
    Focus on the Family is a donor-supported, global Christian 
ministry that reaches about 238 million people in 130 
countries, and as I said, we are very passionate about foster 
care adoption. Our President, Jim Daly, was, in fact, orphaned 
as a child and lived in the foster care system, and so part of 
that experience has been what fuels his passion for this.
    I am blessed. My husband and I are parents to four 
children, who came to us through the blessing of foster care 
adoption, three of whom have special needs, the kind that are 
the subject of the children who are still waiting for families.
    Wait No More began in 2008, and the idea was that we would 
use the voice and the reach of Focus on the Family to try to 
increase awareness about the needs of kids that are in foster 
care that need families, just like we saw in that video, and 
the idea was that we would partner with local child welfare 
officials, adoption agencies, church and ministry leaders in a 
given community to try to work collaboratively to raise 
awareness and help recruit families for these kids.
    Since 2008, we have had 15 Wait No More events in 12 
States, and we have had some very encouraging outcomes. We have 
seen 8,300 attendees at our events, representing 4,700 
families. We have worked with 200 county, State, private 
agencies and ministries all across the United States, and those 
folks that have attended have represented 2,100 different 
churches in communities across the country.
    The best news of all, though, is that at the end of the day 
at these events, we have seen more than 2,100 families who have 
begun the process of foster care adoption. They are beginning 
this process with a full understanding of the challenges that 
they are about to encounter.
    Frankly, one of the things that we do at our events is that 
we give the attendees the opportunity to hear perspectives from 
adoptive parents, to hear the perspective from young adults who 
were adopted as teenagers or as a part of sibling groups. We 
give them the opportunity to hear from social workers about 
what the process is going to be like and what some of the 
barriers may be. And, frankly, we talk an awful lot and almost, 
you could say, try to talk them out of it in a way, because we 
want them to be very serious that this is about the needs of 
the child. And again, as you saw in the great messaging on the 
video, it is about the needs of the child, not the wants and 
desires of the adults.
    We are talking specifically about teenagers, sibling 
groups, and kids with special needs, and so that is why we are 
encouraged that knowing all of that, knowing some of the 
barriers and the challenges, including the specific behaviors 
that they may encounter, and why they may encounter those 
behaviors, and what strategies might be effective in helping 
that child, after all of that we have seen more than 2,000 
families that have begun the process of foster care adoption.
    We are very passionate and committed to postadoption 
support. We want to have integrity in recruiting these families 
for our kids, and we want to also be there for them after the 
fact, when they encounter difficulties, and so as a part of 
that commitment, we have spent an equal amount of money on 
complementary postadoption support for families. We have 
provided about 50,000 units of resources that are designed to 
be adoption competent to meet 
the needs of the families. We have trained 200 counselors 
across 
the country in partnership with Texas Christian University's 
Insti- 
tute on Child Development; we have helped train them to have a 
greater adoption competency. We underwrite the training, we pay 
for it, but we say to them in return, we ask that you would 
provide counseling to a family at no cost to the family so that 
we can increase access to the kind of help our families need.
    We have a 1-800 hotline that families are able to call. 
Actually it is a warm line where they can receive free 
counseling and also referrals then to adoption-competent 
counselors in their areas.
    Finally, I would like to say, as you think about barriers 
to adoption and to increasing foster care adoption, one thing 
to be mindful of, I suppose, is the fact that I think we have 
perverse disincentives built into the system. So right now if 
you are a teenager in foster care, you may have access to 
certain benefits, including mental health services and 
postsecondary education, if you stay in foster care, but if you 
choose a family, you don't have access to those same benefits, 
and we don't believe that children should have to choose 
between those things.
    Thank you.
    [The prepared statement of Ms. Rosati follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman REICHERT. Thank you for your testimony.
    Mr. O'Brien, you are recognized for 5 minutes.

   STATEMENT OF PAT O'BRIEN, MS, LMSW, FOUNDER AND EXECUTIVE 
    DIRECTOR, YOU GOTTA BELIEVE! THE OLDER CHILD ADOPTION & 
               PERMANENCY MOVEMENT, INCORPORATED

    Mr. O'BRIEN. Thank you.
    I am Pat O'Brien, founder and CEO of You Gotta Believe! The 
Older Child Adoption & Permanency Movement, an organization 
that first and foremost considers itself a homelessness 
prevention program. And the way we prevent homelessness is to 
find permanent parents for teens and young adults before they 
are discharged from the foster care system to no one but 
themselves.
    When we started You Gotta Believe back in 1995, I noticed 
an interesting statistic when homeless populations were 
surveyed. In every survey we looked at, over half the homeless 
reported having grown up in foster care as youth. They had 
actually come into our system for their own safety and well-
being, only to be placed in harm's way when they were 
discharged from the very same system.
    I believe the sad result is the direct product of two 
primary barriers. The first barrier is simple: Lack of belief 
that we can find permanent parents for teens and young adults 
as they are aging out of foster care. This lack of belief keeps 
laws from being created that would mandate concurrent planning 
at the exit end of the system. My over 25 years of experience 
has taught me that our child welfare system must never stop 
recruiting permanent parents for children at any age that they 
are at risk of aging out to our Nation's streets.
    The second barrier is actually a child welfare permanency 
planning goal referred to or called in the law Some Other 
Planned Permanent Living Arrangement which May Include a 
Residential Educational Program. Many in our field refer to 
this permanency planning goal as Another Planned Permanent 
Living Arrangement, or APPLA.
    APPLA is focused on preparing youth for adulthood. APPLA 
focuses on skills development and teaching youngsters the 
important skills to survive in the world on their own. And 
though skills development in preparing for adulthood is very 
important, there are still very few, if any, young people in 
the general population, including yours and my children who are 
over 21, making it on their own without the help of their 
parents.
    For example, as you know, the overwhelming majority of 22- 
year-old college graduates who come from fairly well-off one- 
or two-parent families return home to their parents after they 
graduate college with a 4-year bachelor's degree.
    But we, as a child welfare system, are putting youth 
between the ages of 18 and 21 in harm's way without even trying 
to get them permanent parents before they are discharged from 
our foster care system because there is no law that mandates 
even the effort.
    So how do we find permanent parents for aging-out youth? 
You Gotta Believe has a three-pronged approach. The first we 
call the friend's approach. You see, once you believe that a 
permanent parent must be found for every youth before they age 
out of care, the first place you look for this permanent parent 
is by talking to the constructive adults who are already in an 
individual young person's life. And when we identify someone 
who is known to the youth, we ask these folks to take a 10-week 
learning experience we call Adopting Older Kids and Youth, or 
A-OKAY, to see if making a lifetime commitment to this young 
person they so much care about is something that they can do.
    Our statistics and research show us that this is the single 
most effective way to recruit a lifetime parent for youth aging 
out of care. During a 4-year period under a Federal adoption 
opportunities demonstration grant, it took nearly 1,000 
prospective applicants from the general public to walk through 
our door to get 37 young people a parent. However, during the 
same 4-year period, it only took 154 prospective applicants to 
walk through our doors who knew a teen to get 83 young people 
placed in a lifetime family. This approach is a simple, highly 
efficient means of recruiting permanent parents for aging-out 
teens.
    Our second approach is the acquaintances approach. There 
are many young people in the system where it is believed by the 
people around them that they have no constructive adults in 
their lives. For these youth we set up opportunities for them 
to share the same time and space with our prospective and 
certified families. We do this by bringing young people into 
our A-OKAY parent preparation classes as consultants to teach 
our prospective families what it is like to be a teen growing 
up in foster care.
    Many families who come forward having no interest in 
adoptive teens have decided a teen on our panel was someone 
they could adopt. Dozens and dozens of youth have been placed 
as a direct result of sharing the same time and space and 
becoming acquaintances with the prospective and certified 
families who have taken our A-OKAY course. This is the second-
best way.
    The third approach is community education. Years ago our 
organization realized that we were having little success trying 
to sell what we were doing to the general public in 15- or 30-
second sound bites. That is why we created our own media, both 
TV and radio. These broadcasts serve a local purpose of 
recruiting local parents and a more global purpose by inspiring 
the rest of the world by introducing them to the wonderful 
youth who need permanent families and the parents who adopt 
them, all in one-half hour thoughtful interviews and 
conversations.
    Finally, where should adoption incentive rewards be 
reinvested? There are two equally important areas. The first is 
funding to continue to recruit the very permanent parents that 
we know are out there for each and every youth. Reinvesting 
these incentive dollars to utilize the three strategies noted 
above would be an impactful way to get more youth into 
permanent families before they are discharged from the foster 
care system.
    Parents and families are the foundation and springboard to 
every child's future. Parents and families give youth access to 
the village we so often talk about needing to raise children. 
It sure does take a village to raise a child, but only if the 
child has a parent in that village to provide the foundation he 
or she needs. This is equally true for the 18-, 19-, 20- or 21-
year-old as it is for the infant, toddler, latency-age, and 
tween-age child.
    Second, we must support families after the youth move in. 
Almost all the youth at the age range we place had serious 
trauma in their lives. We prepare parents for what to expect, 
but we must also be there to support them during their hard 
times.
    If we could provide these two basic adoption services, then 
each youth will have what the child welfare system promised 
them when they first came into foster care, and that promise 
was a home that provides safety, the opportunity for well-
being, and a permanent parent and family who will be there for 
them long after their years in foster care are over.
    I want to thank you very much for the time.
    [The prepared statement of Mr. O'Brien follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Chairman REICHERT. Thank you, Mr. O'Brien.
    Ms. Dobbins, you are recognized.

                 STATEMENT OF NICOLE DOBBINS, 
             EXECUTIVE DIRECTOR, VOICE FOR ADOPTION

    Ms. DOBBINS. Chairman, Ranking Member, Members of the 
Subcommittee, I direct an organization that is an advocacy 
organization called Voice for Adoption. Our members recruit 
families, and they provide postadoption support services.
    I would like to shed light on four key areas within my 
time: The rate of adoption from foster care is increasing, but 
adoption of older youth continues to be a struggle. Our aging-
out youth population you heard about, we need to connect them 
to permanency before exiting. Postadoption services is a 
critical need identified, but there are a lack of resources to 
support these efforts. And lastly, accountability for Federal 
funds that have been dedicated to adoption, we need to make 
sure that we are reviewing those to ensure that reinvestment is 
happening as required by law.
    The Fostering Connections Act as well as the ASFA of 1997 
took great strides in increasing adoptions. The rate of 
adoption has increased by 77 percent, but more needs to be 
done.
    Consistent with the national number of children in foster 
care decreasing, so is the number of children waiting to be 
adopted. As adoption populations decline, States won't be able 
to continue to meet and exceed the rates they are basing their 
adoption incentives on, which is fiscal year 2007.
    Voice for Adoption recommends adjusting the baseline level 
so that more current levels are reflected so that the Adoption 
Incentives program can continue to be an effective approach.
    We also request that detailed reports on the number of 
adoptions by each category be reported by HHS, because 
currently only information about the amounts is being reported. 
It is hard to have a clear picture of what types of increases 
States are having because of this amount-only information being 
reported.
    Despite the achievements we have seen, connecting waiting 
children with adoptive families still is a struggle within 
these States. It is critical that we find ways to increase the 
likelihood of adoption of older youth, and as you understand 
from what you have heard, promising practices for older youth 
differ from that of young children. These efforts include a 
variety of things that should be strengthened, encouraged at 
the State level, including youth engagement, permanency 
planning, smaller caseloads, intensive family finding, kinship 
connections, and reunification efforts when possible. Voice for 
Adoption recommends reauthorizing the Family Connection grant.
    Another way we see to continue to promote the effective 
practices to encourage State leverage of public-private 
partnerships is to promote a key provision of the Fostering 
Connections Act, which is the Federal Title IV-E reimbursement 
training for a range of services. We believe that this benefit 
has not yet--the expansion has not yet been realized, and we 
recommend that some clarity in successful State examples be 
pushed through HHS, specifically toward effective models that 
we know work for adopting children, specifically older 
children.
    When we take these youth from their homes, we know that we 
have an obligation to create better circumstances for them, and 
right now as a system we are failing older youth. An area that 
warrants greater examination is something you have already 
heard about, the APPLA case goal. It replaced long-term foster 
care in the legislation 16 years ago, but we fear, and there is 
a growing concern in the field, that it simply changed the 
terminology and not the trajectory of these young people's 
lives.
    Voice for Adoption recommends providing incentives to 
States for the reduction of youth who exit without permanent 
connections. Furthermore, I urge the Committee to hold future 
hearings on this specific issue.
    I have two last points. Postadoption services help adoptive 
families and children move through the stages of becoming a 
family, especially children who have been adopted from foster 
care, as they work through past traumas and strengthen the 
family as a unit. The Federal Government has invested millions 
of dollars into increasing adoptions without reciprocal 
mandates to services to support these families after 
finalization.
    There has been a great deal of research about the quality 
of postadoption services, and parents sometimes are faced with 
seeing practitioners who don't understand the dynamics, which 
escalates the issues. For this we recommend greater development 
of implementation of adoption-competent mental health providers 
and appropriate funding streams to accomplish this goal. 
Specifically we recommend that States be required to use the 
adoption incentive bonuses to meet the needs of families 
postadoption.
    Lastly, I would like to highlight an issue that you may be 
interested in, which is the Fostering Connections maintenance-
of-efforts provision that came out of the Federal de-link for 
the adoption assistance. States are seeing a greater increase 
in their budgets. Due to this, the Congressional Budget Office 
scored the Fostering Connections Act at a $1.4 billion savings 
to States. The Federal Government required States to reinvest 
the savings back into child welfare and adoption services, but 
despite legislative attempts, it has been unclear whether these 
funds are being reinvested.
    As States continue to accrue savings on what they would 
have been spending on State adoption assistance, there is an 
even greater opportunity for the investment in making sure that 
postadoption services are available. With that, we recommend 
that a percentage of these funds be designated if no other 
funds are, and that public reporting of these uses by States 
are reported by HHS.
    Thank you.
    [The prepared statement of Ms. Dobbins follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Chairman REICHERT. Thank you.
    And now we move into the question phase, so we will have an 
opportunity to use up 5 minutes and ask you some questions, 
too.
    We will focus on some of those things you just mentioned to 
us in your testimony. For example, in fiscal year 2011, HHS 
reported that there were over 38,000 children who had been in 
foster care for over 5 years. In the same year over 26,000 kids 
aged out of foster care with no permanent family connection, 
and this, again, was a point most of you made during your 
testimony.
    Why do some of these kids stay in foster care so long?
    Ms. SORONEN. Mr. Chairman and Members of the Committee, 
based on our experience with this child-focused program across 
the Nation, in all of the States, what we see are a number of 
layers of challenges to getting these children out of care. You 
saw the ``unadoptable'' word. Unfortunately, with lack of 
training at the feet-to-the-ground level with social workers to 
show that the children on their caseload are adoptable, we hear 
time and again caseworkers assuming that they can't be adopted, 
so let's put our resources into helping them age out of care. 
So first we have to train, I think, the frontline workers a 
little bit better about these children, their needs, and their 
adoptability.
    We also have the very children themselves who have suffered 
such trauma in their lives, who have moved--what I didn't share 
is 10 percent of the children in the Wendy's Wonderful Kids 
program had moved 10 or more times before they landed on the 
caseloads. So when a child moves multiple times, attends 
multiple schools, there is no reason to trust a notion of an 
adoptive family being any better for them. But what we found is 
when we had dedicated adoption recruiters who could work with 
those children, talk to them, explain and maybe work away some 
of their fears about simple things like changing their name or 
that they may not have to move again, the value of a family, 
the majority of the children who had previously been opposed to 
adoption then moved toward considering adoption. This is 
critical because those are the children who express a voice in 
court, and the court makes a designation of another planned 
permanent living arrangement or long-term foster care for that 
child.
    So it is that sort of devil's mix of wanting to respect a 
child's wishes, but sometimes those wishes are based on further 
trauma in the system that has said to them, I don't want to be 
adopted. So training for the frontline workers, I think, and 
making sure that they are working with the children so that 
they can understand the value of adoption.
    Chairman REICHERT. I am going to follow up on that just a 
little bit. On page 3 of your testimony, you noted that half 
the children Wendy's Wonderful Kids worked with never 
previously had anyone work with them to find an adoptive home. 
Are there any Federal policies that contribute to that or other 
reasons why children might stay in foster care so long without 
anyone helping them or finding them an adoptive home?
    Ms. SORONEN. I don't think so much there are Federal 
policies that push that they stay in care, but the way that we 
have trained our workers to deal with older youth has not been 
beneficial to getting them out of care. So putting their face 
on a website, for example, is one tactic, but then that 
charismatic wish that someone will see their face and come 
adopt them, let's face it, when we are all in a social setting, 
and we talk about teenagers, we all kind of screw up our faces. 
In just normal families teenagers are a challenge. Imagine a 
teenager who has been in care for 10 years, who has multiple 
challenges, who has pushed back against adoption, and a worker 
simply stops working on their behalf and says, what I think is 
best for this child is moving forward, and parents aren't 
stepping forward, either.
    So I think it is we can't legislate changing attitudes, but 
we can show success, that these children can be served, that 
they can be adopted and help drive a public will for getting 
them adopted.
    Chairman REICHERT. Yes. One of the biggest frustrations I 
had working on the street and working with kids, was trying to 
get them convinced that they were adoptable, that they could 
move into an adoptive home. So I have been a witness to that. I 
think you are very accurate in your description.
    One last quick question. Mr. O'Brien, your organization 
works with youth who are close to aging out of foster care. Why 
have those kids been waiting so long, in your view?
    Mr. O'BRIEN. In my view, it is because no law mandates that 
we must continue to never stop looking for a family. Almost all 
of those kids are receiving APPLA services, teaching them to 
prepare for adulthood, when they have everything provided for 
them up until a certain birthday, whether it is 18, 19, 20 or 
21, and then after that birthday they have been prepared for 
aging out, they age out, and they have absolutely nothing 
provided for them.
    If at the exact same time we were preparing them for 
adulthood we never stopped looking for a family, by law we 
would have found many, many more kids, because the crime is not 
not finding the family, the crime is not even having to look 
for the family, and when kids get old, we don't have to look.
    Chairman REICHERT. Thank you so much for your answers.
    And, Mr. Doggett, you are recognized for 5 minutes for 
questioning.
    Mr. DOGGETT. Thank you, Mr. Chairman, and thanks to each of 
our witnesses not only for your testimony, but for the devotion 
you show to this very important and challenging cause.
    The small role that we can play relates to the 
reauthorization of these two specific laws, and I gather that 
each of you favor our reauthorizing the Adoption Incentives 
program. Have you had--I believe, Ms. Dobbins, you mentioned 
the Family Connection grants, which is the newer program. Have 
any of our other witnesses, have you had experience with that 
program, and do you favor its reauthorization?
    Mr. O'BRIEN. Well, I mean, I would certainly favor anything 
that is good for kids.
    Mr. DOGGETT. Right.
    Mr. O'BRIEN. It is just that it almost avoids the real 
issue. I mean, as we are providing more and more services, we 
are not--there is no mandate to continue working with kids to 
try to get them parents at the same time. So I would absolutely 
recommend the reauthorization of it, but I would like it a 
little bit stronger where there is a mandate to look for 
families at the same time.
    Mr. DOGGETT. Ms. Rosati.
    Ms. ROSATI. I would like to add that I think not only do we 
not have that mandate, we unintentionally create these 
incentives that end up pushing things to the outcomes that none 
of us would actually desire. And so as the issue that I 
mentioned, sometimes you may have benefits that are there for a 
child only when that child stays in the system and ages out of 
the system, so that if you are a parent--if you are a foster 
parent in the life of that child, or if you are an acquaintance 
or a friend, and you have a connection there, and you want that 
child to support--to be supported, to go to college, or to 
access the mental health services that they may need, you can't 
also say, let's go ahead and I will adopt you and be your 
forever family, because the minute you do that, you are going 
to sometimes in some places then lose the opportunity to go to 
college, lose the opportunity for the mental health services 
that you need that will be the foundation for a successful life 
going forward. And so I think replacing some of those 
disincentives in the system would also go a long way to 
providing the outcomes that we all desire.
    Mr. DOGGETT. Thank you.
    Ms. Dobbins.
    Ms. DOBBINS. Yes, I just want to make a point trying to get 
to both questions there. One of the questions is how come kids 
stay in care so long. There is a correlation between placement 
setting of children in care, especially for older youth. A lot 
of older youth are in group home facilities, congregate care 
settings. What we know about those youth is that recruitment 
efforts don't typically happen, but what we have seen with 
Family Connection grants, at least preliminary evaluations, is 
that these are actual efforts in reviewing caseloads for some 
of the harder children to find homes for, which are the 
intensive family findings, so who are the relatives of these 
children.
    And so, again, back to the correlation, if, you know, we 
have large populations of older youth in these facilities, then 
those are the ones not getting the attention that they really 
need to be working down some of the things that we talked about 
of, you know, what are their fears, do they want to be adopted, 
can we convince them that, you know, there is a family that 
wants them and that kind of thing.
    So I hope that kind of answers both questions. I think the 
Family Connection grants start to work toward the practice that 
we are seeing greater improvements in.
    Mr. DOGGETT. And why is it that we need additional data 
from HHS? And I guess in turn they are getting that from the 
States.
    Ms. DOBBINS. Additional data on which, I am sorry?
    Mr. DOGGETT. You indicated in your testimony that you 
wanted to see HHS reports by category. I am just asking you to 
expand on that.
    Ms. DOBBINS. Oh, a very good question.
    Mr. DOGGETT. I assume that means also they are requiring 
that from the States.
    Ms. DOBBINS. I am sure they are. I just haven't seen 
reporting at, you know, the public level, because, you know, 
what is reported is how much States actually earn, but I think 
it is important to also know what States are receiving the 
bonuses for, so in which categories? Are they receiving them 
because they are increasing the adoptions of older youth ages 9 
and older; or is it because they are increasing the special 
needs adoptions; or is it because their rates of adoption are 
increasing, which is something important to note, because the 
rates of adoption are only provided as an incentive to States 
if there is money left over in the allotment? And so what we 
have seen is that rates of adoption have increased, but are 
there States that possibly have rate increases, but can't reach 
the individual adoptions over a certain baseline that aren't 
getting the incentives because that is an afterlook?
    And so that is a question of, you know, a better reporting 
on the categories, or at least a deeper look into this as it is 
being reauthorized.
    Mr. DOGGETT. Do the maintenance-of-effort requirements need 
to be altered?
    Ms. DOBBINS. That is actually another issue. The 
maintenance of effort from the IV-E adoption assistance de-link 
is another issue. The Federal Government did a great job of 
legislating that these reinvestments do need to go back into 
child welfare services, but what we have seen is we are not 
really sure where they are going. We had hoped that States were 
spending them in the right places, but there is not a good 
reporting of that. And at Voice for Adoption we do believe 
since this money is coming from increasing adoptions, and we 
want to support that, that a modest percentage of that, 20 
percent, be dedicated to continuing to support these families 
so that we are not seeing families, you know, disrupted and 
that their needs for trauma and abuse are looked at at the, you 
know, family level.
    Mr. DOGGETT. Thank you.
    Chairman REICHERT. The gentleman's time has expired.
    Mr. Young is recognized.
    Mr. YOUNG. Well, I thank you, Mr. Chairman and Ranking 
Member. This is a very important topic. I appreciate everyone's 
patience and presence here today. I know it has been a long 
day.
    Lowering barriers to adoption and to supporting families 
postadoption, I think there has been a Federal precedent for 
this effort. It is something we need to make sure that we 
continue and improve upon, and so your testimony has been 
helpful in guiding us in that regard.
    I will start off with this question for anyone on the 
panel, feel free to respond, but from the standpoint of those 
who are seeking to adopt a child from foster care, how 
efficiently do the various Federal and State programs 
supporting adoption appear to work together, in your 
estimation?
    And as you think about answering that, there may be some 
particular areas of focus that you want to attend to; perhaps 
the information that would-be adoptive parents need to access 
tax credits supporting adoption, do they receive sufficient 
information? Do they receive sufficient information about 
maintenance payments for children with special needs? Are they 
told of postadoption services from programs like Promoting Safe 
and Stable Families and Child Welfare Services?
    I will leave this open to the panel.
    Ms. DOBBINS. Yes, I will try to take a stab at that.
    I think one thing you mentioned specifically that I would 
like to touch on is the adoption tax credit. What we have seen 
with the changes in the adoption tax credit that have happened 
in the last few years is that a lot of adoptive families are 
not able to access it because they don't have a tax liability 
high enough. I can follow up; there is great information behind 
this. So that is one issue. So it became refundable in 2010 for 
2 years.
    It takes a certain amount of time and effort for that 
information to trickle down from the Federal level to States, 
to families, to caseworkers, and what we have seen most 
recently that when it was just reauthorized in January, it was 
not refundable, and for 2012 it is not. But what families were 
told, and we keep hearing from families, that it was 
refundable, so they were looking forward to using those 
services, that money, to support, you know, their children 
after adoption. So there is a lack of, you know, what knowledge 
is really getting to the families, and so that could be shored 
up.
    There was one other question that I wanted to get to.
    Mr. YOUNG. I will actually be coming back to you.
    Would others like a crack at that question?
    Ms. ROSATI. Yes. As someone who went through the process 
four times, I think those are really great questions. We were 
not aware of the adoption tax credit in the beginning. I guess 
for some reason we just assumed it was only for intercountry 
adoption and not for foster care adoption, so we missed it for 
one or two kids. That was a bummer. But we were then able to 
access it after the fact.
    I think that for the families that are going through the 
process, things are pretty overwhelming. The amount of 
paperwork is overwhelming, the time that things take can be 
overwhelming, the level of intrusiveness that it feels like 
into your life can be pretty overwhelming.
    I don't say all of those things, however, to say that we 
need to change them all. I actually have a little bit of a 
counterintuitive perspective on that. I think if you are going 
to welcome home a child who has experienced previous trauma, 
you have to be ready for a lot of situations that do not fall 
under the umbrella of nor- 
mal parenting, and so when you go through these processes that, 
frankly, are very difficult, I actually think it helps prepare 
you for the difficulty to come. And so I think there is a 
balance in how much we want to streamline.
    Mr. YOUNG. Sure.
    Ms. ROSATI. And so many of the processes, of course, are 
for safety, and so there is really not much that should be 
done.
    Mr. YOUNG. Thank you.
    I am going to follow up with Ms. Dobbins in my remaining 
time here. You mentioned a menu of different policy options 
that are available to us to both promote more adoptions and 
perhaps improve those postadoption connections. Mr. Doggett, I 
think, questioned you about more detailed HHS reporting. It 
makes great sense to me.
    You mentioned State examples of best practices need to be 
better enforced or regulated by HHS. If you could briefly--we 
have about 30 seconds left--indicate what you are referring to 
there or speak to the reduction of incentives for States that 
do not end up with permanent connections at a high level.
    Ms. DOBBINS. I think one thing is the IV-E training. We 
talked a lot about practices. I think it could be encouraged, 
especially with public and private partnerships, by using good 
examples of what this looks like. There is a reimbursement 
level that can be expanded, and--sorry, I am blanking on the 
next thing, but I hope that answers your question. I am happy 
to follow up after.
    Mr. YOUNG. That is all right.
    I yield back. Thank you.
    Chairman REICHERT. Thank you.
    The gentleman's time has expired. Mr. Griffin is 
recognized.
    Mr. GRIFFIN. Thank you, Mr. Chairman.
    Ms. Rosati, I want to ask what are your funding sources for 
each of your groups, and how much of that is composed of State 
funding or Federal funding versus private sources?
    Ms. ROSATI. We receive no government funding. We are funded 
by the generosity of our donors. And we are able to go into the 
areas that we work and essentially pay for the events ourselves 
so that we are able to hopefully add to the good work that has 
already been done in the community. And I think one of the 
reasons we are received well is that we are not asking for 
funds, we want to contribute our funds if they would like to 
have us.
    Mr. GRIFFIN. Before I hear from the others, I just want to 
ask you, does that model represent a very unique sort of small 
percentage of the groups that assist, in your experience?
    Ms. ROSATI. It seems like it, because people are pretty 
shocked and happy when we come in and offer that we want to 
contribute our resources to make those efforts work. So we are 
not aware of too many other things like that, but we are really 
happy to be a part of the good work that is already going on on 
the ground. And the public-private partnership is key. Having 
all of those stakeholders working together has been a real key 
to the success.
    Mr. GRIFFIN. To the others, do you care to comment about 
your funding sources?
    Mr. O'BRIEN. Sure. Our primary funding comes from local 
counties and the city of New York. And also the Dave Thomas 
Foundation funds three of our full-time staffers.
    Mr. GRIFFIN. Great.
    Mr. O'BRIEN. And then we raise some money, and we have a 
State contract through Adoption Opportunities Federal grant. So 
it is somewhat diverse, but it comes a lot from governmental 
local sources.
    Mr. GRIFFIN. Ms. Dobbins, Ms. Soronen, do you wish to 
respond?
    Ms. SORONEN. We are a national nonprofit public charity. 
Until 2012, we were exclusively funded through private donors 
and through our philanthropic partnerships.
    When we released the research on the Wendy's Wonderful Kids 
model in 2011 and then approached the State of Ohio to scale 
that program as a test site for scaling was the first time we 
took State funds in order to scale that program, but we still 
manage them. The funds come through us, and we manage those 
grants as a nonprofit organization.
    Mr. GRIFFIN. Ms. Dobbins.
    Ms. DOBBINS. We are a very small advocacy organization. We 
are membership based, so our members actually pay in dues, 
annual modest dues. We don't receive government funding, 
Federal funding, and we receive donations as well.
    Mr. GRIFFIN. Got you. Ms. Rosati, is your group the only 
faith-based group here today, or do any others represent faith-
based organizations? And you would characterize yours as faith-
based?
    Ms. ROSATI. Absolutely, yes.
    Mr. GRIFFIN. I am familiar with your group.
    Mr. O'BRIEN. Well, we do a lot of believing at my place, 
but we don't----
    Mr. GRIFFIN. Sure. Yes.
    As a faith-based group, have you found that there are 
additional legal barriers because you are a faith-based group?
    Ms. ROSATI. I am pleased to say that we have not really 
experienced barriers. We went into this with our eyes wide 
open, understanding that there may be some issues. We have had 
tremendous working relationships with our government partners. 
I think there are some basic rules we all observe about how it 
is that we interact, and it has worked very, very well.
    I do know, however, that there are places where those who 
are involved in child welfare from a faith-based perspective 
have had difficulty maintaining their continued presence in 
those areas. And certainly the ability for those faith-based 
organizations to continue to operate in accordance with the 
dictates of their faith is something we think is very 
important. So while we haven't seen those barriers, we know 
that they exist, and we certainly hope that they won't expand 
any further in the States where we have already seen that 
happen.
    Mr. GRIFFIN. I am running out of time, but I just want to 
real quickly ask, you mentioned, Ms. Rosati, that there were 
some Federal incentives that you thought were not necessarily 
accomplishing the stated goal. And that happens a lot with the 
Federal Government; well intentioned, but misses the mark. Can 
you elaborate on that a little bit?
    Ms. ROSATI. Yes. The two biggies that we see a lot are the 
opportunity for those who age out of the system to go on to 
college and to have that funded and benefited. I think 
legislators at the State level are afraid it will break the 
bank. In fact, it will do no such thing. And because they limit 
it, if you go on and get adopted, you lose that benefit. You 
shouldn't have to choose between higher education and an 
adoptive family.
    Another big one that we see a lot relates to certain kinds 
of mental health services that are fully funded and accessible 
if the teenager stays in foster care, but if they get adopted, 
then it becomes much more difficult to access.
    And those would be two things I think where we would need 
parity in order to eliminate the disincentive that currently 
exists.
    Mr. GRIFFIN. Thank you. Sounds like something we need to 
look at. Thank you.
    Chairman REICHERT. Thank you.
    Mr. Davis, you are recognized.
    Mr. DAVIS. Thank you very much.
    Let me thank the witnesses for coming. Chairman Reichert, 
Ranking Member Doggett, let me, first of all, thank you for 
this hearing. I think it is a very important one as we attempt 
to improve the Adoption Incentives Act.
    For almost a decade now, I have advocated to draw on the 
successes of the Adoption Incentives program in increasing 
adoptions to amend the focus of the law to promote permanency. 
The witnesses have discussed the need to focus on finding 
permanent homes for foster children, and, as I understand it, 
there are three paths to permanency for foster youth: 
reunification, guardianship and adoption.
    We know from research, including the GAO report requested 
by the Ways and Means Committee, that African American children 
stay in foster care longer because of difficulties in 
recruiting adoptive parents and a hesitancy to terminate 
parental rights as is required for adoption.
    African American and Native American families tend to 
choose guardianship as a route to permanency rather than 
adoption because they do not see a need to legally sever the 
relationship or connection between parent and child.
    Given the fact that my congressional district has the 
highest percentage of grandparents raising grandchildren in the 
Nation, followed by two other congressional districts in 
Illinois, one right next to mine and then the other one a 
little further away, guardianship as a permanency option is 
critically important. A grandmother raising her grandchild does 
not want to erase the legal connection of her own child to her 
grandchild. In the Fostering Connections law, this Subcommittee 
and Congress recognize the disproportionate negative effect of 
excluding guardianship with regard to foster care parents.
    Mr. Chairman and Ranking Member and other Members of this 
Subcommittee, I ask you to help make sure that we improve the 
Adoption Incentives Act by encouraging States to promote 
permanency for foster children so that more children, and 
especially more children of color, can exit care to permanent 
homes faster.
    Ms. Dobbins, you have done a great deal of work in this 
area, and Voices for Adoption does a great deal to promote 
permanency. Based upon your expertise on the Adoption 
Incentives program, what are some of the ways in which we can 
amend the law to better promote permanency?
    Ms. DOBBINS. Thank you. And great question. I think what is 
important is permanency. We do support permanent options and in 
broadening the incentive, especially as we can look to what the 
Federal Government has done in this area of really promoting 
this and seeing a really big increase in States taking this on 
and those resources becoming a permanent family for kids who 
otherwise would be in foster care for long periods of time.
    I think we also have to understand how to measure the 
incentive and make sure that it is the right fit, so we do 
support it.
    Mr. DAVIS. My time is going to expire, Mr. Chairman, but if 
the other witnesses could just indicate whether or not they 
view this as a very important recognition.
    Ms. SORONEN. Congressman, we do. And, in fact, when we 
provide our grants and set aggressive goals for those grants, 
we have included guardianships as those goals. And of those 
numbers I told you, nearly 200 of those finalized permanent 
numbers are guardianships.
    Mr. O'BRIEN. And a lot of the homes that we find for older 
teenagers are with people that they are related to, and that is 
a very important source of permanent parents.
    Ms. ROSATI. I concur as well. We have a partner out in the 
Seattle area who just formed what is called The Children's Law 
Center to provide volunteer lawyer services for the 
grandparents and others who are in the situation you described 
to allow them to lock in and get what they need in terms of 
permanent guardianship.
    Mr. DAVIS. Thank you very much, Mr. Chairman, and I yield 
back.
    Chairman REICHERT. Thank you, Mr. Davis, and I look forward 
to working with you on this important issue that you just 
raised.
    Mr. Renacci, you are recognized.
    Mr. RENACCI. Thank you, Mr. Chairman. I want to thank all 
the witnesses for being here.
    Ms. Soronen, I want to thank you as a fellow Buckeye for 
being here and testifying as well.
    Ms. SORONEN. Thank you.
    Mr. RENACCI. Adoption is generally always a better outcome 
for kids than remaining in foster care. In addition to the 
benefits the child receives, I believe adoption has the 
potential to have huge economic benefits.
    Ms. Soronen, you mentioned on page 7 of your testimony that 
your program is resulting in State savings as well, just in 
terms of the cost of foster care versus the cost of the 
program. Can you tell us more about the impact your program is 
having on State spending in Ohio?
    Ms. SORONEN. Yes. And we were pleased that the Ohio 
Department of Job and Family Services came forward and said, we 
want to move these children out of foster care into adoptive 
homes. And I believe in their heart of hearts that is their 
first goal, but they also understand the financial impact.
    Ohio is one of those States that has not been able to hit 
the threshold of adoption incentives for a number of years. And 
so this program, as we looked at it and worked with the fiscal 
manager at the Ohio Department, we said, help us understand 
what is the financial impact in Ohio, so as we potentially move 
this to other States, we can use this as both the human and a 
financial template as well.
    What we found is with a $2.3 million investment from this 
budget from the Department, and then in--hopefully negotiated 
in the next biennial with Ohio, over a 3-year period with a 
potential $6 or $7 million investment, what they believe is the 
savings to the State will be in excess of $100 million, and 
that is because we are getting children age 9, 10 or 11, and we 
know that by the time a child turns 8, the likelihood of 
adoption is significantly decreased. So to keep a 9- or 10-
year-old in care for 8 or 10 more years, if you look at those 
costs, take out the subsidy that the State provides, that 
savings is still significant.
    And the State has said to us they look forward to using 
those savings to continue to invest in embedding and growing 
this as best practice for Ohio's older youth.
    Mr. RENACCI. Thank you.
    Ms. Dobbins, I want to go a little further on the incentive 
payments. You know, as you mentioned in your testimony, 22 
States did not receive incentive payments for fiscal year 2011. 
I know this is an issue that does affect the State of Ohio. Not 
only did Ohio not receive incentive payments for 2011, but the 
last incentive payment Ohio received was for fiscal year 2003.
    But I know Ohio has made great strides to increase the rate 
of adoption, yet the way the program is currently structured, 
Ohio does not receive incentive payments for its progress.
    Should the current baseline remain, or should it be changed 
again?
    Ms. DOBBINS. I think there are two things, and I did 
highlight this as an example, where there is opportunities 
where States are increasing the rates of adoption, but the rate 
of adoption is afterlook, so States only get that incentive if 
there is still funding allotted for the adoption incentives.
    So the first way that States get money is that they have to 
increase the numbers of adoptions of older youths and children 
with special needs above a baseline which was set in fiscal 
year 2007, but if then they can show that they have also 
increased the rates of adoption, then whatever money is left 
over, the States receive that incentive.
    So we do think this should be looked at more closely, 
especially by people who do data analysis, to see if changing 
it affects the rate, and if that is a greater indicator of 
success among States, we think that might be an issue that the 
Subcommittee could look at.
    Mr. RENACCI. Do you see waiting periods for foster youth to 
continue to decline?
    Ms. DOBBINS. Well, populations of foster care are 
declining, yes. So these numbers have steadily declined over 
time, even the number of waiting children. So, yes, we do.
    Mr. RENACCI. Ms. Soronen, do you have any comments on the 
baseline, especially since it affects Ohio?
    Ms. SORONEN. I think I agree with everything that Nicole 
has mentioned. I would also add that we should look at what Mr. 
O'Brien talked about, those caseloads of children in long-term 
foster care, and scrub those caseloads and see what we can do 
relative to the Adoption Incentives program of also assuring 
that those children aren't simply in that indeterminate status 
for their lifetime in foster care of another planned permanent 
living arrangement.
    Mr. RENACCI. Do any of the other witnesses have any 
comments on the baseline at all to add?
    All right. Thank you. I yield back, Mr. Chairman.
    Chairman REICHERT. Well, you made it. That concludes the 
questioning. So we just appreciate you waiting, being patient 
with the rest of what we were doing here today. And then just a 
real heartfelt thank you for what you do for our young people 
across the country.
    And I know this was a good hearing, because Mr. Young just 
whispered in my ear, ``This is an excellent hearing.'' And you 
heard Mr. Davis' comments about, thank you for holding this 
hearing. So we take this issue very, very seriously. And just 
again, thank you so much for being here and for your patience 
today.
    So if Members have additional questions for the witnesses, 
they will submit them to you in writing, and we would 
appreciate receiving your responses for the record within 2 
weeks.
    And now the Committee stands adjourned.
    [Whereupon, at 5:20 p.m., the Subcommittee was adjourned.]
    [Submissions for the Record follow:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    

                                 
</pre></body></html>
